No. 21 - _________

IN THE SUPREME COURT OF THE UNITED STATES

In re: Larry Klayman
Petitioner

On Petition for a Writ of Mandamus to the
United States Court of Appeals for the
Eleventh Circuit

PETITION FOR WRIT OF MANDAMUS

CERTIFICATE OF SERVICE
I, Larry Klayman, Petitioner Pro SE, hereby certify that on the
11th day of August 2021, I caused to be served one copy the Petition for
a Writ of Mandamus in the above referenced case by Federal Express
postage prepaid, upon the counsel for Respondents as listed below:
Mark A. Lerner
Duane Morris, LLP
230 PARK AVE STE 1130
NEW YORK, NY 10169-0079

1

Dana J. McElroy
Thomas & LoCicero, PL
Firm: 954-703-3417
401 SE 12TH ST STE 300
FORT LAUDERDALE, FL 33316
I further certify that all parties required to be served have been
served.

/s/ Larry Klayman

Larry Klayman, Esq.
Klayman Law Group, P.A
7050 W. Palmetto Park Rd
Boca Raton FL 33433
(561)558-5336
leklayman@gmail.com
Pro Se

2

